Nos.: 19-1257 & 19-1258

In The Supreme Court of the United States



MARK BRNOVICH, ATTORNEY GENERAL OF ARIZONA, ET AL.,
Petitioners,
– v. –
DEMOCRATIC NATIONAL COMMITTEE, ET AL.,
Respondents.
_________________________
ARIZONA REPUBLICAN PARTY, ET AL.,
Petitioners,
– v. –
DEMOCRATIC NATIONAL COMMITTEE, ET AL.,
Respondents.
_______________________________
ON WRITS OF CERTIORARI TO THE UNITED STATES COURT OF
APPEALS FOR THE NINTH CIRCUIT

BRIEF FOR AMICI CURIAE MI FAMILIA VOTA, ARIZONA
CENTER FOR EMPOWERMENT, CHISPA ARIZONA and
LEAGUE OF WOMEN VOTERS OF ARIZONA IN
SUPPORT OF RESPONDENTS

JASON A. LECKERMAN
Counsel of Record
BALLARD SPAHR LLP
1735 Market Street, 51st Floor
Philadelphia, PA 19103
(215) 665-8500
leckermanj@ballardspahr.com

ROY HERRERA
DANIEL A. ARELLANO
JILLIAN L. ANDREWS
IAN O. BUCON
BALLARD SPAHR LLP
1 East Washington Street,
Suite 2300
Phoenix, Arizona 85004
(602) 798-5400
herrerar@ballardspahr.com
Counsel for Amici Curiae

i
TABLE OF CONTENTS

Page

TABLE OF AUTHORITIES ................................... iii
INTEREST OF AMICI CURIAE.............................. 1
SUMMARY OF ARGUMENT .................................. 2
ARGUMENT ............................................................. 4
I. Latino Americans’ Right to Vote Is Under
Attack ................................................................. 4
A. In Enacting H.B. 2023, the Arizona
Legislature Codified Anti-Latino
Sentiment ....................................................... 7
B. Arizona’s Legislators Have an Established
Record of Anti-Latino Rhetoric...................... 9
II. The History of the Voting Rights Act Has
Been to Include and Protect Latino Voters ..... 10
III. Courts Have Found Attacks on Latino Voters,
and § 2 Has Protected These Voters ............... 13

ii
IV. The Ninth Circuit Properly Analyzed Arizona’s
Voting Policies and Correctly Concluded They
Violate the Voting Rights Act ........................... 14
A. Arizona’s Challenged Policies Impose
a Disparate Burden on Minority
Voters ........................................................... 15
B. The Disparate Burden on Minority Voters
Is Linked to Social and Historical
Conditions in Arizona .................................. 19
1. Latino voters are more likely than white
voters to lack access to knowledge of
their polling place .................................... 21
2. Latino voters are more likely than white
voters to lack access to their polling
place or ballot drop-off locations ............. 23
3. Latino voters are more often subject
to misinformation than non-minority
voters, leading to voter distrust .............. 25
V. A Robust Voting Rights Act Is More Necessary
than Ever to Protect Latino Voters .................. 26
CONCLUSION ....................................................... 29

iii
TABLE OF AUTHORITIES
Cases:

Page

Chisom v. Roemer,
501 U.S. 380 (1991) .................................... 11, 13
Democratic Nat’l Comm. v. Reagan,
329 F. Supp. 3d 824 (D. Ariz. 2018) ......... Passim
Democratic Nat’l. Comm. v. Hobbs,
948 F.3d 989 (9th Cir. 2020) .................... Passim
Thornburg v. Gingles,
478 U.S. 30 (1986) ............................................ 19
González v. Douglas,
269 F. Supp. 3d 948 (D. Ariz. 2017) ................. 10
League of Women Voters of N.C. v. North
Carolina,
769 F.3d 224 (4th Cir. 2014) ............................ 27
Lee v. Va. State Bd. of Elections,
843 F.3d 592 (4th Cir. 2016) ............................ 27
North Carolina v. N.C. State Conf. of the NAACP,
137 S. Ct. 1399 (2017) ...................................... 27
Ohio Democratic Party v. Husted,
834 F.3d 620 (6th Cir. 2016) ............................ 27

iv
Oregon v. Mitchell,
400 U.S. 112 (1970) .......................................... 12
Shelby County v. Holder,
133 S. Ct. 2612 (2013) ................................ 11, 27
South Carolina v. Katzenbach,
383 U.S. 301 (1966) .......................................... 11
Veasey v. Abbott,
830 F.3d 216 (5th Cir. 2016) ................ 13, 14, 27
Statutes:
52 U.S.C. § 10301(b) ...............................3, 15, 19, 26
A.R.S. § 15-112 ....................................................... 10

INTEREST OF AMICI CURIAE
Arizona Center for Empowerment (“ACE”),
Chispa Arizona, the League of Women Voters of
Arizona, and Mi Familia Vota respectfully submit
this brief of amici curiae in support of Respondents. 1
ACE is a community-led organization whose
work is focused on civic engagement, political
education, democracy, census participation, and
voter registration in all communities of color. As
part of ACE’s work in these areas, it often
encounters—and hopes to end—discrimination and
disinformation campaigns that make it more
difficult for Arizona’s Latino voters to exercise their
most fundamental right.
Chispa Arizona, a program of the League of
Conservation Voters Education Fund, engages in
non-partisan efforts to turn environmental values
into national, state, and local priorities by growing
Latino voices, political power, and civic engagement
for a cleaner future in Arizona. Chispa Arizona
leads site-based voter registration programs, with a
focus on Arizona counties with sizeable Latino
communities. Since 2018, Chispa Arizona has
collected more than 44,000 voter registrations
across the state. Chispa Arizona firmly believes that
1 Amici state that no counsel for a party to this case authored
this brief in whole or in part; and no person or entity, other
than Amici and their counsel, made a monetary contribution
intended to fund the preparation and submission of this brief.
Amici further state that all parties have consented to the filing
of this brief.

2
ballot collection and delivery would support the
participation of Latino voters.
The League of Women Voters of Arizona is an
affiliate of the League of Women Voters of the
United States, a nonprofit organization that has
long been active in non-partisan, grassroots
organizing at the national, state, and local levels.
For a century, the League has dedicated its efforts
to protecting and promoting the democratic process
of American government through public service and
robust voter education and registration.
The
League’s volunteers help tens of thousands of
citizens in Arizona register to vote, check their
registration status, update voter information, and
navigate the often confusing system of absentee and
mail-in voting.
Mi Familia Vota is a national non-profit
organization that unites Latino, immigrant, and
allied communities to promote social and economic
justice through increased civic participation by
promoting leadership development, citizenship,
issue
organizing,
and
non-partisan
voter
registration and participation. Mi Familia Vota is
one of the premier Latino civic engagement
organizations in the country, with operations in
Arizona, California, Colorado, Florida, Nevada, and
Texas.
SUMMARY OF ARGUMENT
Arizona’s out of precinct (“OOP”) and thirdparty ballot collection policies impose a disparate
burden on Arizona’s minority voters and, when

3
taken together with Arizona’s historical and ongoing
discrimination against minority citizens, result in
vote denial and minority voters having “less
opportunity than other members of the electorate to
participate in the political process and to elect
representatives of their choice.” -52 U.S.C.
§ 10301(b).
Amici and other community organizations
have for years recognized the danger of these
challenged policies as fuel to an existing fire, as
Arizona’s
minority
voters
have
suffered
discrimination for the entirety of the state’s history.
Now, in an age where Latino Arizonans’ right to vote
remains under siege from both unintentional and
intentional discrimination, these policies exacerbate
the inescapable truth that Latino voters in Arizona
are unable to wield as much political power as their
white counterparts.
Congress and courts around the country have
made it clear that the Voting Rights Act (“VRA”)
should be used to combat the discriminatory voting
burden borne by minority voters. Amendments to
the VRA and recent voting rights cases demonstrate
that a robust application of § 2 is the best way to
preserve some measure of equality in America’s
voting practices. Recognizing this, the Ninth Circuit
correctly concluded that Arizona’s challenged
policies, which resulted in the disenfranchisement
of at least 3,709 voters in the 2016 election alone,
violate § 2.
The record before the Ninth Circuit amply
reveals why so many minority voters have been

4
disenfranchised by the challenged policies. In
particular, discrimination in the areas of wealth,
education, transportation, housing, and health
increase the odds that Latino voters will be
disproportionately burdened by the OOP and ballot
collection policies. Finally, recent troubling trends
of disenfranchisement and voter suppression
around the country show that the VRA—along with
the federal courts’ faithful application of it—is more
important than ever.
ARGUMENT
I. Latino Americans’ Right to Vote Is
Under Attack.
Latinos are part of our country’s most
important and fastest growing electorates. The
Hispanic 2 population of the United States grew to a
record 60.6 million people in 2019, an increase of
almost 1 million people from the previous year, and
nearly 10 million more people than in 2010. NoeBustamante, et al., U.S. Hispanic population
surpassed 60 million in 2019, but growth has
slowed, Pew Research Center (July 7, 2020),
https://www.pewresearch.org/fact-tank/2020/07/07/
u-s-hispanic-population-surpassed-60-million-in2019-but-growth-has-slowed/. Hispanics are the
While Amici write on behalf of the Latino voters they serve
in Arizona, some data cited throughout this brief relies on the
race-based categories of Hispanic and Non-Hispanic. As it is
the most widely used metric in data from the U.S. Census
Bureau and others, Amici rely on it to support their arguments
regarding Latino voters.
2

5
second-largest racial or ethnic group—second only
to non-Hispanic whites—and represent more than
half of the United States’ population growth over the
past decade. Id. In Maricopa County, the county
with the fourth largest Hispanic population in the
nation, 31% of the population is Hispanic. Id. 22%
of eligible voters in Arizona are Hispanic. Latinos
in the 2016 Election: Arizona, Pew Research Center
(Jan. 19, 2016), https://www.pewresearch.org/
hispanic/fact-sheet/latinos-in-the-2016-electionarizona/.
Concurrent with the growth of the Latino
population in the United States, many states have
enacted restrictive voting laws that keep a
disproportionate amount of Latinos away from the
polls. Following the 2010 election, state legislatures
unleashed a torrent of new, restrictive voting
measures.
Such laws include stringent photo
identification requirements, reduced early voting
opportunities, and restrictions on voter registration.
In sum, 25 states have implemented such restrictive
measures over the last decade. New Voting
Restrictions in America, Brennan Center for Justice
(Nov.19, 2019), https://www.brennancenter.org/ourwork/research-reports/new-voting-restrictionsamerica. This trend has accelerated in recent years.
For example, leading up to the 2016 presidential
election, 14 states implemented new voting
restrictions. Id. 2017 saw legislatures in Arkansas,
North Dakota, and Missouri implement restrictive
voting laws. Id. “In 2018, Arkansas, Indiana,
Montana, New Hampshire, North Carolina, and
Wisconsin enacted new restrictions.” Id. 2019 bore

6
witness to new restrictive voting laws in Arizona,
Florida, Indiana, Tennessee, and Texas. Id. Even
in 2020, in the midst of a global pandemic when easy
and safe alternatives to in-person voting were more
important than ever, six states—Indiana, Iowa,
Kentucky, Louisiana, Oklahoma, and Tennessee—
enacted new voter restrictions.
Voting Laws
Roundup 2020, Brennan Center for Justice (Dec. 8,
2019),https://www.brennancenter.org/our-work/
research-reports/voting-laws-roundup-2020-0.
Although such restrictive measures may be
racially neutral on their face, they tend to have
radically disparate impacts on racial and ethnic
minorities. A 2018 poll conducted by The Atlantic
and Public Religion Research Institute illustrates
this point:
Nine percent of black respondents and 9
percent of Hispanic respondents indicated
that, in the last election, they (or someone
in their household) were told that they
lacked the proper identification to vote. Just
3 percent of whites said the same. Ten
percent of black respondents and 11 percent
of Hispanic respondents reported that they
were incorrectly told that they weren’t listed
on voter rolls, as opposed to 5 percent of
white respondents. In all, across just about
every issue identified as a common barrier
to voting, black and Hispanic respondents
were twice as likely, or more, to have
experienced those barriers as white
respondents.

7
Vann R. Newkirk, Voter Suppression is
Warping Democracy, The Atlantic (July 17, 2018)
https://www.theatlantic.com/politics/archive/2018/0
7/poll-prri-voter-suppression/565355/; VandermaasPeeler, et al., American Democracy in Crisis: The
Challenges of Voter Knowledge, Participation, and
Polarization,
PRRI
(July
17,
2018)
https://www.prri.org/research/Americandemocracy-in-crisis-voters-midterms-trumpelection-2018/.
A. In Enacting H.B. 2023, the Arizona
Legislature
Codified
Anti-Latino
Sentiment.
H.B. 2023, “a 2016 statute criminalizing the
collection and delivery of another person’s ballot,”
Democratic Nat’l. Comm. v. Hobbs, 948 F.3d 989,
998 (9th Cir. 2020) (en banc), is no exception to this
phenomenon. As the Ninth Circuit noted below, the
law’s “adverse impact on minority communities is
substantial.” Id. Indeed, “[w]ithout ‘access to
reliable and secure mail services’ and without
reliable transportation, many minority voters
‘prefer instead to give their ballots to a volunteer.’”
Id. (quoting Democratic Nat’l. Comm. v. Reagan, 329
F. Supp. 3d 824, 870 (D. Ariz. 2018)). As Dr. Berman
wrote in his expert report in the district court
proceeding, regarding Hispanic voters,
[T]he practice of collecting ballots, used
principally in Hispanic areas, ha[s]
contributed to more votes being cast in
those places tha[n] would have been cast
without the practice. . . . That the practice

8
has increased minority turnout appears to
have been agreed upon or assumed by both
sides of the issue[.] Democrats and Hispanic
leaders have seen reason to favor it,
Republicans have not.
Id.
Perhaps unsurprisingly, H.B. 2023 was
debated and enacted in the midst of racially charged
allegations of voter fraud surrounding ballot
collection in Arizona. In 2014, Maricopa County
Republican Chair A.J. LaFaro created and
published a video showing “surveillance footage of a
man of apparent Hispanic heritage appearing to
deliver early ballots.” Reagan, 329 F. Supp. 3d at
876. The video included racially tinged commentary,
in which LaFaro stated that he “did not know if the
person was an illegal alien, a dreamer, or citizen,
but knew that he was a thug; and that LaFaro did
not follow him out to the parking lot to take down
his tag number because he feared for his life.” Id.
The LaFaro video became popular on Facebook and
was shown at Republican meetings leading up to the
debate on H.B. 2023. Id. Furthermore, H.B. 2023’s
predecessor, S.B. 1412, was introduced by
Republican State Senator Don Shooter, who “was in
part motivated by a desire to eliminate what had
become an effective Democratic GOTV strategy . . .
[after winning his 2010 election] with 53 percent of
the total vote, receiving 83 percent of the nonminority vote but only 20 percent of the Hispanic
vote.” Id. at 879-80; see also Hobbs, 948 F.3d at 1007.

9
B. Arizona’s
Legislators
Have
an
Established Record of Anti-Latino
Rhetoric.
The LaFaro video and Representative
Shooter’s motivation for S.B. 1412 are not isolated
events in Arizona’s history, but represent merely a
few recent data points on a long timeline stretching
back to Arizona’s territorial period. See generally
Hobbs, 948 F.3d at 1017-25. In addition to the
myriad examples of discrimination against Latino
voters in Arizona listed in the Ninth Circuit’s
opinion below, state legislators have continued to
imbue official discourse with racial invective in
recent history. Strikingly, in 2018, then-Arizona
State Representative David Stringer called
immigration an “existential threat,” warning that
“[i]f we don’t do something about immigration very,
very soon, the demographics of our country will be
irrevocably changed and we will be a very different
country. It will not be the country you were born
into.” Antonia Noori Farzan, Arizona Legislator:
‘There Aren’t Enough White Kids to Go Around’ in
State Schools, Phoenix New Times (June 13, 2018)
https://www.phoenixnewtimes.com/news/arizonalegislator-immigration-demographic-changerepresent-an-existential-threat-to-the-us10517227. Claiming that “there aren’t enough white
kids to go around,” Stringer cautioned that it would
“change the demographic voting base of this state.”
Id. In 2019, Arizona State Senator Sylvia Allen,
while speaking at a Republican Party event,
lamented the “Browning of America,” stating that
the United States is “going to look like South

10
American countries very quickly.” Steven Hsieh,
Sen. Sylvia Allen Warns the U.S. Will Soon ‘Look
Like South American Countries,’ Phoenix New
Times
(July
26,
2019)
https://www.
phoenixnewtimes.com/news/arizona-state-senatorfears-decline-of-white-birth-rate-11333367.
She
warned that immigrants would fail to assimilate.
Id.
Indeed, state legislators’ evident contempt for
Latinos extends to broader cultural concerns as
well. As just one example, the legislature enacted
A.R.S. § 15-112 in 2010 to “target a single
educational program in use in a single school district
in Arizona:” Tucson Unified School District’s
Mexican-American Studies program. González v.
Douglas, 269 F. Supp. 3d 948, 966 (D. Ariz. 2017).
Reviewing that law, the District of Arizona
concluded in 2017 that the law had “no legitimate
pedagogical objective” and instead was “motivated
by a desire to advance a political agenda by
capitalizing on race-based fears.”
Id. at 974.
Notably, at the time of the court’s decision, Tucson
schools were operating under a desegregation decree
put into effect as the result of a desegregation class
action brought by Latino and Black students in
Tucson in 1974. Id. at 950.
II. The History of the Voting Rights Act Has
Been to Include and Protect Latino
Voters.
In order to prevent the type of racial animus
discussed above, as well as other, less obvious efforts
to disenfranchise minority voters, Congress passed

11
the VRA in 1965 “for the broad remedial purpose of
‘ridding the country of racial discrimination in
voting.’” Chisom v. Roemer, 501 U.S. 380, 403 (1991)
(quoting South Carolina v. Katzenbach, 383 U.S.
301, 315 (1966)). Before passage of the VRA,
“Arizonans of Hispanic, American Indian, AfricanAmerican and Asian heritage were the victims of
discrimination in virtually every area of their social
and political lives. See James Thomas Tucker et al.,
Voting Rights in Arizona: 1982–2006, 17 S. Cal. Rev.
L. & Soc. Just. 283 (2008).
In brief, the VRA protects each American’s
right to vote. And up until the Court’s decision in
Shelby County v. Holder, 570 U.S. 529 (2013),
Arizona’s minority voters enjoyed some measure of
protection, just as Congress intended.
Pre-Shelby County, Congress used Section 5
of the VRA, governing “covered jurisdictions,” to
monitor potential voter rights infringement in
Arizona. In 1965, when the VRA was passed, an
English literacy test—first imposed by the
territorial legislature, then prohibited by Congress,
and then reimposed by the state legislature after
statehood—was still in effect in Arizona, subject to
the broad discretion of each county’s registrar.
Hobbs, 948 F.3d at 1018–19. At first, only Apache,
Coconino, and Navajo Counties qualified as “covered
jurisdictions” under the VRA, as all three were
“majority American Indian, and there was a history
of high use of the literacy test and correspondingly
low voter turnout.” Id. at 1022 (noting that the
three counties subsequently and successfully

12
challenged the VRA’s application to their use of the
literacy test).
It soon became clear that, as originally
enacted, the VRA did not adequately address the
discrimination that racial and linguistic minorities
such as Latinos faced. The VRA was amended in
1970 to incorporate voter participation data from
the presidential election of 1968 and to “effectively
impose[] a nationwide ban on literacy tests.” Id. at
1023. As amended, the scope of the VRA expanded
to cover 8 of 14 counties in Arizona. Id. Arizona
swiftly challenged the literacy test ban, but the
Supreme Court rejected Arizona’s challenge. See
Oregon v. Mitchell, 400 U.S. 112, 132 (1970). Justice
Black noted that “[i]n Arizona . . . only two counties
out of eight with Spanish surname populations in
excess of 15% showed a voter registration equal to
the state-wide average.”
Id.
The Arizona
legislature waited two years after the Court’s
decision to repeal its literacy test. Hobbs, 948 F.3d
at 1023.
In 1975, Congress amended the VRA once
again to incorporate voter participation data from
the 1972 presidential election and expand “the
definition of ‘test or device’ to address
discrimination against language minority groups.”
Id. “Every jurisdiction in Arizona failed the new
test.” Id.
Importantly, and as addressed at greater
length in infra Section IV, Congress again amended
the VRA in 1982 so that plaintiffs could establish a
violation of § 2 of the Act by “demonstrating that a

13
challenged election practice has resulted in the
denial or abridgment of the right to vote based on
color or race.” Chisom, 501 U.S. at 394.
III. Courts Have Found Attacks on Latino
Voters, and § 2 Has Protected These
Voters.
In keeping with congressional intent, courts
have applied § 2 of the VRA to protect Latino voters
from unlawfully restrictive voting measures, just as
the Ninth Circuit did here.
For example, in Veasey v. Abbott, 830 F.3d
216 (5th Cir. 2016), the Fifth Circuit found that
Texas implemented a new voter identification
requirement in violation of § 2. Prior to that
measure’s enactment, Texas permitted voters to
“cast a ballot in person by presenting a registration
certificate—a document mailed to voters upon
registration.” Id. at 225. After the enactment of SB
14 in 2011, however, voters were required to present
specific forms of personal identification before
voting at the polls. Id. If a voter were unable to
produce a valid form of identification for purposes of
SB 14, he or she could “cast a provisional ballot after
executing an affidavit” attesting to his or her
eligibility to vote, but would be required to produce
a valid SB 14 identification within 6 days at the
county registrar. Id. at 226. A broad group of voters
and advocacy groups challenged the measure in
federal court in 2013. After a 9-day bench trial, the
district court found that the measure “create[d] an
unconstitutional burden on the right to vote [under
the First and Fourteenth Amendments], has an

14
impermissible
discriminatory
effect
against
Hispanics and African-Americans [under § 2], and
was
imposed
with
an
unconstitutional
discriminatory purpose.” Id. at 227-28.
Reviewing the district court’s decision en
banc, the Fifth Circuit upheld its finding that SB 14
had a discriminatory effect on minorities’ voting
rights in violation of § 2. Id. at 250–56 (noting
evidence in record that Latinos were 2.42 times
more likely to lack identification sufficient to cast a
ballot under SB 14); id. at 258 (noting evidence in
record that “the gap between Anglo and Latino
Republican support is between 30 and 40 percentage
points”). The Fifth Circuit remanded to the district
court to consider an appropriate remedy. Id. at 265.
Veasey helped set the groundwork for
appropriate enforcement of § 2, which when
correctly employed, is a powerful tool to protect
minority voters, and one which the Ninth Circuit
wisely used in the en banc decision below.
IV.The Ninth Circuit Properly Analyzed
Arizona’s Voting Policies and Correctly
Concluded They Violate the Voting
Rights Act.
As local organizations who work to increase
the engagement, enfranchisement, and turnout of
Latino voters, Amici are well-versed in the obstacles
facing minority voters in Arizona.
A robust
application of § 2 is the best way to honor the intent
of the Voting Rights Act and ensure that Latinos in
Arizona are not denied their right to vote—a right

15
which must be equal to that of the state’s white
voters. The Ninth Circuit properly recognized that
the two Arizona policies at issue are two of the most
pernicious burdens facing the state’s Latino voters
in recent history. And despite Petitioners’ cynical
insistence that this construction creates nothing
more than “a get-out-the-vote program for one
political party,” (Brief for Private Petitioners at 31),
the Ninth Circuit properly undertook an “intensely
localized” appraisal of Arizona’s election procedures
and the history of discrimination levied against
minorities in the state.
Arizona’s Latino voters have always had “less
opportunity” to meaningfully “participate in the
political process,” 52 U.S.C. § 10301(b), than have
their white counterparts. But the addition of
Arizona’s OOP and ballot collection policies on top of
this this history of discrimination rendered Latino
political opportunity even more compromised. Only
the faithful application of § 2 used by the Ninth
Circuit—and its sister circuits—can account for the
factors that have compounded the lack of
opportunity that Latinos have to exercise their right
to vote.
A. Arizona’s Challenged Policies Impose
a Disparate Burden on Minority
Voters.
At the first step of the results test, the Ninth
Circuit correctly found that Arizona’s OOP and
ballot collection policies impose a disparate burden
on Arizona’s minority voters.

16
The Ninth Circuit examined an array of
statistical data and “extensive and uncontradicted
evidence in the district court,” which indicated that
minority voters are predisposed to the negative
effects of the OOP and ballot collection policies.
Hobbs, 948 F.3d at 1014. This data was particularly
persuasive in the context of OOP voting, as
“Hispanic, Native American, and African American
voters cast OOP ballots at statistically higher rates
than their non-minority counterparts.” Reagan, 329
F. Supp. 3d at 835. In fact, in 2012, Maricopa
County’s rate of OOP voting was “131 percent higher
for Hispanics . . . than whites.” Id.
These imbalanced numbers of Latino OOP
votes versus white OOP votes are striking, and their
damaging effect is clear when one considers that
Arizona leads the nation in the number of rejected
OOP ballots. Hobbs, 948 F.3d at 1001 (noting that
“[t]he percentage of rejected OOP votes in Arizona is
eleven times that in Washington, the State with the
second-highest percentage”).
Thus, Arizona’s
Latino voters, who vote OOP more than any
demographic in the state, are likely at greater risk
of having their entire ballot thrown out than any
other voting group in the entire country.
Moreover, even a small number of minority
voters denied their full right to vote is significant in
the context of Amici’s work. Disenfranchisement of
a few thousand voters across the state has grave
implications for Latino voters, who are already
underrepresented at the polls. See Reported Voting
and Registration by Sex, Race, and Hispanic Origin

17
for November 2018, tbl. 4b, U.S. Census Bureau,
https://www.census.gov/data/tables/time-series/
demo/voting-and-registration/p20-583.html
(reporting that only 36.2 percent of Arizona’s
Hispanic voters cast ballots in the 2018 general
election, compared to 63.9 percent of white, nonHispanic voters). Indeed, news of nearly 4,000
rejected votes casts a shadow over the voter trust
and participation that Amici organizations work to
foster amongst Latino voters. Amici regularly
encounter new voters who are enthusiastic about
the process but doubtful that their ballots will
actually be counted in the races where they matter
most.
On top of its negative effects on voter morale
and turnout, the disenfranchisement of 3,709
Arizona voters can change the course of an election.
For example, Arizona’s 2020 general election saw
several extremely close races that could have been
altered by a few thousand votes:
x

In Arizona Legislative District 28, where
the incumbent state senator represents
around 171,000 residents, Democrat
candidate Christine Marsh unseated
Kate Brophy McGee by only 497 votes.

x

In the statewide four-way race for three
open seats on the Arizona Corporation
Commission, candidate Anna Tovar
outpaced the second highest vote-getter
by only 231 votes.

18
x

In the race for Maricopa County
Recorder, Republican candidate Stephen
Richer
unseated
the
Democratic
incumbent Adrian Fontes by 4,599 votes
out of nearly 1.9 million cast.

While the number of voters disenfranchised
by Arizona’s OOP policy is more easily quantified
than the number impacted by H.B. 2023, the district
court correctly noted that “no court has explicitly
required quantitative evidence to prove a vote
denial claim,” and thus did not reject the claim on
those grounds. Reagan, 329 F. Supp. 3d at 868.
Nonetheless, the district court rejected “consistent
and uncontradicted testimony about third-party
ballot collection they had done, supervised, or
witnessed,” which was later properly credited by the
Ninth Circuit. Hobbs, 948 F.3d at 1033. Amici,
organizations with experience in Latino voting
behavior, are well aware that minority voters were
more likely to utilize ballot collection to return their
early ballots in the face of inadequate mail service,
lack of transportation, and lack of voter information
and education. Amici believe firmly that allowing
ballot collection would facilitate their efforts to
register and turn out Latino voters in Arizona.
At bottom, the Ninth Circuit correctly
assessed the number of minority voters affected by
the OOP and ballot collection policies, and the Court
should uphold the well-reasoned finding at step one
of the § 2 test that such policies impose a disparate
burden on minority voters.

19
B. The Disparate Burden on Minority
Voters Is Linked to Social and
Historical Conditions in Arizona.
The Ninth Circuit was correct in its finding
that the disparate burden imposed by Arizona’s
OOP and ballot collection policies is more likely to
be borne by minority voters because the historic
discrimination against Arizona’s minorities has
increased their reliance on OOP voting and thirdparty ballot collection. The result is “‘an inequality
in the opportunities enjoyed by [minority] and white
voters to elect their preferred representatives; or to
participate in the political process.” Hobbs, 948 F.3d
at 1016 (quoting Thornburg v. Gingles, 478 U.S. 30,
47 (1986); 52 U.S.C. § 10301(b)).
In reaching this conclusion, the Ninth Circuit
correctly characterized the Senate factors and
analyzed them in the context of Arizona’s history.
See id. at 1017–32. This section will focus on Senate
factor five and the effects on Arizona Latinos of
discrimination in “socioeconomic standing, income,
employment,
education,
health,
housing,
transportation, criminal justice, and electoral
representation.” Reagan, 329 F. Supp. 3d at 876.
This factor most directly explains the predisposition
of Latino voters to vote OOP or by ballot collection,
and thus best accounts for the disproportionate
number of Latinos disenfranchised by the
challenged policies.
Arizona’s Latino citizens have undisputedly
unequal access to education, health, and wealth

20
compared to the state’s white citizens. 3 Indeed, the
district court recognized that “the effects of
discrimination in socioeconomic standing, income,
employment,
education,
health,
housing,
transportation, criminal justice, and electoral
representation have persisted in Arizona.” Id.
Census data compiled by the University of
Arizona shows that nationally, nearly 20 percent of
Hispanic-Americans live below the poverty line,
compared to 11 percent of white Americans. Poverty
Rate (2019), Making Action Possible for Southern
Arizona,
https://mapazdashboard.arizona.edu/
health-social-well-being/. In Arizona, those rates
are 21.6 percent and 13.2 percent, respectively. Id.
The inequality continues across educational
achievement, where Arizona’s Latinos have been
less likely than their white counterparts to graduate
high school. Accountability & Research Data, Cohort
2019 Four Year Graduation Rate Data, Ariz. Dept.
of
Educ.,
https://www.azed.gov/accountabilityresearch/data (reporting that 75 percent of Hispanic
or Latino students graduated high school, compared
to 85 percent of white students). And, as the lower
3 Of course, other minority groups in Arizona are also subject
to discriminatory gaps in health, wealth, and education. The
Court should therefore also consider the gravity of the
historical discrimination encountered by American Indians
and African-Americans in Arizona. Arizonans of both groups
live below the poverty line at rates significantly higher than
white citizens and have faced unique and egregious historical
discrimination that, like Latinos, renders them more likely to
be disenfranchised by Arizona’s OOP and ballot collection
policies.

21
courts both noted, “[w]hite Arizonans . . . are nearly
three times more likely to have a bachelor’s degree
than Hispanics and Native Americans.” Hobbs, 948
F.3d at 1028.
The effects of discrimination are longstanding
and pervasive in Arizona. Cumulatively, they give
rise to an increased likelihood that Latino voters
will vote by OOP or by third-party ballot collection,
due in large part to three specific challenges foisted
upon Latinos as a result of extensive inequality in
the state. Namely, Arizona’s Latino voters are more
likely to 1) lack access to knowledge about their
polling or ballot drop-off location; 2) lack physical
access to these locations; and 3) receive faulty
information about elections and mistrust voting
information.
1. Latino voters are more likely than
white voters to lack access to
knowledge of their polling place
Increased rates of poverty make it more likely
that Latino voters will rely on OOP voting or thirdparty ballot collection because poverty decreases
access to updated information about polling places
and makes it more likely that a voter’s polling place
will change.
The University of Arizona has noted that
around 82 percent of Latinos in the state have
broadband internet access, compared to 90.5 percent
of white Arizonans. Internet Access (2019), Making
Action
Possible
for
Southern
Arizona,
https://mapazdashboard.arizona.edu/infrastructure

22
/internet-access. When the location of a voter’s
polling place is not obvious, the most reliable way to
learn its location is via the state’s online resources.
This problem is further exaggerated in Arizona,
where many polling places may be located at the
edge of a precinct, less likely to be obvious to voters
who live far from it. See Brief of Respondent
Democratic National Committee at 9 (“In 2012,
approximately 25 percent of OOP voters lived closer
to the polling place where they cast their OOP ballot
than to their assigned polling place”); 23 (noting
that Maricopa County polling places are often
“located at the edge of precincts, farther from voters’
homes, leading to voter confusion”). 4
Adding to the challenge of locating a polling
place is that the polling places change frequently.
See Hobbs, 948 F.3d at 1001 (“between 2006 and
2008, at least 43 percent of [Maricopa County]
polling locations changed”). They change even more
frequently for minority voters who experience high
residential mobility as a result of poverty and
housing discrimination, and because election
officials change polling places more frequently in
poor areas than in affluent areas. Id. at 1002
While Maricopa County recently changed to a vote-center
model whereby voters could cast their vote at any vote center
in the county regardless of precinct, Maricopa County may
rejoin other precinct-based counties again in the future. If
Maricopa County were to revert to the precinct system, the
OOP policy will resume the disenfranchisement of OOP voters
in Maricopa County by rejecting their entire ballot in violation
of VRA § 2, unless this Court affirms the Ninth Circuit’s en
banc holding to protect OOP voters.

4

23
(“Hispanics experienced stability in their polling
places . . . about 30 percent lower than the rate for
whites”).
If, due to a lack of access and an abundance
of confusion, a minority voter cannot locate the
voter’s assigned polling place, he or she is more
likely to vote at the wrong location or to forgo voting
in person. Assuming a minority voter can locate his
or her assigned polling place, the next challenge is
getting there to cast a vote.
2. Latino voters are more likely than
white voters to lack access to their
polling place or ballot drop-off
locations
The district court and the Ninth Circuit both
remarked upon the fact that Latino voters are “more
likely to work multiple jobs, less likely own a car,
and more likely to lack reliable access to
transportation.”
Hobbs, 948 F.3d at 1028.
Importantly, the Ninth Circuit noted that these
factors make it more difficult not only to “travel to a
polling place” but also “between an incorrect polling
place and a correct polling place,” meaning a voter
who is informed he must vote a provisional ballot
may not have the ability to remedy that by traveling
to the correct location. Id.
Additionally, minority voters are less likely to
have time off work to vote when polls are open,
increasing the chances that they will vote at the
nearest precinct or hand their ballot off to a
collector, just to be sure they can fit voting into their

24
schedule. American Democracy in Crisis: The
Challenges of Voter Knowledge, Participation, and
Polarization, PRRI https://www.prri.org/research/
American-democracy-in-crisis-voters-midtermstrump-election-2018/ (reporting that 16 percent of
Hispanic and Black voters said that they or a
member of their household failed to vote due to an
inability to take time from work, as compared to 8
percent of White voters).
These problems are exacerbated by the fact
that Arizona’s persistent lack of polling places and
its oddly placed polling places create a greater
distance for voters to travel, often without reliable
ways to get there. See Brief of Respondent Katie
Hobbs at 8 (“Voters who live more than 1.4 miles
from their assigned polling place are 30 percent
more likely to vote OOP.”).
Finally, the primary issue minority voters
face that makes them more likely to utilize thirdparty ballot collection is a lack of reliable mail
service. As the Ninth Circuit recognized, “H.B. 2023
is likely to have a pronounced effect in rural counties
with significant American Indian and Hispanic
populations who disproportionately lack reliable
mail and transportation services.” Hobbs, 948 F.3d
at 1035.

25
3. Latino voters are more often
subject to misinformation than
non-minority voters, leading to
voter distrust
In addition to the historic inequalities
described above, Arizona’s Latino voters are also
subject to increased rates of misinformation and
resulting voter distrust, due in part to the language
and education discrimination described in Senate
factor five. First, the district court and Ninth
Circuit discussed the instances when “Maricopa
County has repeatedly misrepresented or
mistranslated key information in Spanish language
voter materials.” Hobbs, 948 F.3d at 1024. Those
errors, combined with “lower levels of English
literacy and education,” render Latino voters “more
likely to be unaware of certain technical voting
rules.” Id. at 1028; See also Tucker et al., supra, at
284 (discussing Arizona’s “sweeping limitations on
bilingual education”).
On top of misinformation, Latino voters are
subject to election practices that breed mistrust of
an unreliable system. For example, last-minute
changes to polling places—more common in poor
neighborhoods—suggest to voters that they are
better off not voting in the next election if it means
they can avoid showing up at the wrong place.
“[E]xtremely long lines” at the polling place also
suggest to Latino voters that the election system
cannot be trusted to create an easy and accessible
voting experience. Id. at 1025.

26
As for the ballot collection policy, the district
court noted the “surprising number of voters in the
Hispanic community [who] distrust returning their
voted ballot via mail, particularly in low-income
communities where mail theft is common.” Reagan,
329 F. Supp. 3d at 869. These voters—and in
particular, older Latino voters—are more likely to
rely on in-person return, possibly via a volunteer
who offers to return a voter’s ballot on his or her
behalf. Amici regularly observe this trend in their
voter engagement work, and believe that they could
more effectively encourage Latino voter turnout if
they could assist voters via ballot collection.
Taken together, the considerations of Senate
factor five suggest that the ongoing disparities in
wealth, education, housing, transportation, and
other fields give rise to many reasons why Latino
voters are more likely to rely on OOP voting or thirdparty ballot collection. As a result, Latino voters are
more frequently disenfranchised by the policies,
meaning they have less “less opportunity than other
members of the electorate” to exercise political will.
52 U.S.C. § 10301(b).
V. A Robust Voting Rights Act Is More
Necessary than Ever to Protect Latino
Voters.
The Court should affirm the Ninth Circuit’s
en banc holding because it represents the robust
voter protections that the VRA is intended to
provide, and which are more necessary than ever for
Arizona’s Latino voters. Recent years have seen a
marked increase in voting restrictions against

27
which § 2 provides a potent tool to protect voters.
These measures have included voter ID restrictions
(see Veasey; League of Women Voters of N.C. v. North
Carolina, 769 F.3d 224 (4th Cir. 2014); Lee v. Va.
State Bd. of Elections, 843 F.3d 592 (4th Cir. 2016));
shortened early voting periods (see Ohio Democratic
Party v. Husted, 834 F.3d 620 (6th Cir. 2016)); and
limits to same-day voter registration (see North
Carolina v. N.C. State Conf. of the NAACP, 137 S.
Ct. 1399 (2017)), among others.
This wave of VRA litigation is due in part to
Shelby County v. Holder and its invalidation of
federal preclearance requirements. 133 S. Ct. 2612
(2013). Without the safety net of preclearance, state
legislatures will continue to enact laws that restrict
the rights of minority voters. Arizona’s enactment
of H.B. 2023 is the perfect example of this postShelby County phenomenon. See Reagan, 329 F.
Supp. 3d at 880–81.
All of these threats to minority voting rights
are taking place against a larger national backdrop
of the extreme events of 2020, which have stressed
Arizona’s voting procedures to the breaking point.
COVID-19 made Amici’s work even more vital, as
they navigated new challenges around safely
engaging with voters and realized that the threat of
the pandemic made even more important options
like OOP voting and third-party ballot collection.
2020 also brought with it a wave of groundless
voting security concerns—a debate in which Arizona
has unfortunately been thrust onto center stage.
Despite the tireless efforts of Arizona election

28
officials to conduct a smooth and efficient election
amid unprecedented challenges, Americans and
even Arizona’s own representatives have continued
to lob wild allegations of voter fraud regarding the
state’s November 2020 general election. These
baseless allegations of voter fraud, like those that
animated the passage of H.B. 2023, invite
conspiracy-minded legislators to pass ever-more
stringent voting restrictions, always under the guise
of preserving the very election integrity they
themselves have called into question.
These
measures stand to disproportionately harm
Arizona’s Latino voters.
In the midst of these discouraging
developments and the ongoing discrimination
against minority voters, a robust application of § 2
is the best way to help prevent the erosion of
minority voting rights. And while states are entitled
to
devise
localized
procedures
in
their
administration of elections, the courts must in turn
be equipped to use the tools Congress provided them
to discern the discriminatory results those
procedures wreak on minority populations. The
Ninth Circuit properly exemplified how to make
such surgical and “intensely local” appraisals of
state election practices, as § 2 requires. Anything
less than a strong § 2 will fail to combat both actual
and perceived attempts to curtail Latino voters’
access to free and fair elections, and will be
powerless against the ongoing discrimination that
Arizona Latinos face in exercising their political
power.

29
CONCLUSION
For the foregoing reasons, the Court should
affirm the Ninth Circuit’s en banc decision.
Respectfully Submitted,
JASON A. LECKERMAN
Counsel of Record
BALLARD SPAHR LLP
1735 Market Street,
51st Floor
Philadelphia, PA 19103
(215) 655-8500
leckermanj@ballardspahr.com

ROY HERRERA
DANIEL A. ARELLANO
JILLIAN L. ANDREWS
IAN O. BUCON
BALLARD SPAHR LLP
1 East Washington St.,
Suite 2300
Phoenix, AZ 85004
602-798-5400
Counsel for Amici Curiae

January 20, 2021

